September 26, 2003
Audit Report No. 03-044


The Federal Deposit Insurance
Corporation’s Progress in Implementing
the Gramm-Leach-Bliley Act, Title V --
Privacy Provisions
                           TABLE OF CONTENTS

BACKGROUND………………………………………………………………………………..2

     Subtitle A of GLBA Title V……………………………………………………..……...2
     Subtitle B of GLBA Title V………………………………………………………..…...3
     Other Sections of GLB A Title V…………………………………………..…………...4
     FDIC Rules and Regulations…………………………………………………………...4
     DSC's Approach for Examining Standards for Safeguarding
     Customer Information…………………………………..………………………………5
     DSC's Approach for Examining Privacy Notice Requirements……………………...7

RESULTS OF EVALUATION…………………………………………………………………8

FINDINGS AND RECOMMENDATIONS…………………………………………………..10

FINDING A: FDIC'S PROGRESS IN IMPLEMENTING GLBA
TITLE V -- PRIVACY PROVISIONS…………………..………..…………………………..10

     FDIC Rules and Regulations and FDIC Procedures that Address
     GLBA Title V Provisions…………………...…………………………...……………..10
     Internal Quality Assurance Review of the Privacy
     Examination Process……………….……………….………………………………….12
     DSC Views on Financial Institutions' Compliance with GLBA………….………….13

FINDING B: DSC'S EXAMINATION PROCEDURES FOR GLBA
TITLE V -- PRIVACY……………….…………………………………………...……………15

     Subtitle B - Fraudulent Access to Financial Information……….……...……………15
     Procedures for Examining Standards for Safeguarding
     Customer Information…………………………………………………………………17

CONCLUSIONS AND RECOMMENDATIONS…………...……………………………….22

CORPORATION COMMENTS AND OIG EVALUATION…………………………….…22

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY…………………………..24

APPENDIX II: ACRONYMS USED IN REPORT………………………………………….27

APPENDIX III: SUMMARY CROSSWALK OF GLBA TITLE V PROVISIONS TO
FDIC RULES AND REGULATIONS AND FDIC PROCEDURES……….........................28

APPENDIX IV: CORPORATION COMMENTS.………………………………………….38
APPENDIX V: MANAGEMENT RESPONSES TO RECOMMENDATIONS............….41

TABLES:
Table 1: Technology Types and IT Examination Procedures….……………………………7

Table 2: FDIC Rules, Guidance, and Implementing Procedures for Major
GLBA Title V -- Privacy Provisions …………….……………………………………………11

Table 3: DSC Action Plan Items……………………………………………………………...12

Table 4: Interagency Procedures - Categories and Key Questions…….…………………..18

Table 5: References to the Standards for Safeguarding Customer Information
in the IT General Work Program "Help" Section…………….……………………….……19

Table 6: Example of GLBA-Related Examination Procedures
that Do Not Reference GLBA………….……………………………………………………...20

Table 7: DSC's Guidelines on GLBA Reporting…………..………………………………....21
Federal Deposit Insurance Corporation                                                                            Office of Audits
Washington, D.C. 20434                                                                              Office of Inspector General


   DATE:                                September 26, 2003




   FROM:                                Russell A. Rau
                                        Assistant Inspector General for Audits

   SUBJECT:                             The Federal Deposit Insurance Corporation’s Progress in
                                        Implementing the Gramm-Leach-Bliley Act, Title V -- Privacy
                                        Provisions (Report No. 03-044)

   This report presents the results of our evaluation of the Federal Deposit Insurance Corporation’s
   (FDIC) implementation of the Gramm- Leach-Bliley Act of 1999 1 (GLBA), Title V -- Privacy
   provisions. Congress enacted several privacy provisions in the GLBA in response to concerns
   about the growing inability of consumers to control access to their personal financial
   information, namely, GLBA, Title V -- Privacy, Subtitle s A and B. These privacy provisions
   created new requirements for various federal and state regulatory agencies and financial
   institutions. Congress continues to emphasize the importance of consumer privacy as
   demonstrated by recent hearings covering the topics of identity theft and obligations regarding
   disclosures of personal information. 2

   The objective of our evaluation was to determine whether the FDIC has made reasonable
   progress in implementing the GLBA, Title V privacy provisions. Specifically, we reviewed
   actions that the FDIC’s Division of Supervision and Consumer Protection (DSC)3 has taken to
   implement the Title V provisions of GLBA. This evaluation addresses both Subtitle A –
   Disclosure of Nonpublic Personal Information, 4 and Subtitle B – Fraudulent Access to Financial

   1
     Pub. L. No. 106-102, codified to titles 12 and 15, United States Code (U.S.C.). The privacy provisions of the Act
   are codified at 15. U.S.C., §§ 6801 – 6827 and 1681s.
   2
     U.S. Senate Committee on Banking, Housing, and Urban Affairs conducted hearings in June 2003: (1) “The
   Growing Problem of Identity Theft and Its Relationship to the Fair Credit Reporting Act” (June 19, 2003); and
   (2) “Affiliate Sharing Practices and Their Relationship to the Fair Credit Reporting Act” (June 26, 2003).
   3
     The FDIC’s DSC, in conjunction with other federal and state regulators, examines financial institutions to ensure
   they are conducting business in compliance with consumer protection rules and in a way that minimizes risk to their
   customers and to the deposit insurance funds. There are five categories of examinations: Safety and Soundness,
   Community Reinvestment Act, Compliance, Information Technology, and Trust.
   4
     Subtitle A defines nonpublic personal information as personally identifiable financial information that an
   institution obtains under any of the following three sets of circumstances: (1) the consumer (see definition in
   footnote 5) provides the information to the institution to obtain a financial product or service; (2) the information is
   about the consumer and results from any transaction involving a financial product or service between the institution
   and the consumer; or (3) the information is about the consumer and is otherwise obtained in connection with
   providing a financial product or service to that consumer.


                                                              1
Information. For purposes of this report, we generally refer to topics of “safeguarding customer 5
information” and “privacy notice requirements” rather than the specific section numbers within
the GLBA. The DSC reviews financial institutions’ compliance with: (1) GLBA provisions on
safeguarding customer information as part of DSC’s information technology (IT) examinations
and (2) GLBA privacy notice requirements through compliance examinations.

Details of our objective, scope, and methodology are included as Appendix I of this report.
Appendix II lists acronyms used in this report.


BACKGROUND

In addition to reforming the financial services industry, the GLBA addressed concerns relating to
consumer financial privacy. Title V of the GLBA established major privacy provisions under
two subtitles – A and B. Subtitle A provides a mechanism to protect the confidentiality of a
consumer’s nonpublic personal information. Subtitle B prohibits “pretext calling,” which is a
deceptive practice used to obtain information on the financial assets of consumers. Criminal
penalties and regulatory and administrative enforcement mechanisms are established to help
prevent this practice. Appendix III of this report provides a summary “crosswalk” of GLBA
Title V provisions to FDIC rules and regulations and DSC examination procedures.

Subtitle A of GLBA Title V

In Subtitle A of GLBA Title V, Congress established requirements for financial institutions and
regulatory agencies to protect the privacy of nonpublic personal information obtained by
financial institutions.

         Financial Institution Responsibilities: Section 501(a) of Subtitle A, states: “It is the
         policy of the Congress that each financial institution has an affirmative and continuing
         obligation to respect the privacy of its customers and to protect the security and
         confidentiality of those customers’ nonpublic personal information.” Section 502 applies
         this policy by generally prohibiting financial institutions from disclosing consumers’
         nonpublic personal information to any entity that is not an affiliate 6 of, or related by
         common ownership or control to, the financial institution (nonaffiliated third party),




5
  Subtitle A uses the t erms “customer” and “consumer” in different sections. “Customer” is not statutorily defined,
although “customer relationship” is described in a definition which, in part, refers to regulations which the financial
banking regulators were to draft. In those regulations, the federal banking regulators defined “customer” to mean a
“consumer” who has established a “customer relationship” with the financial institution. “Consumer” is defined in
GLBA Section 509 as an individual (or legal representative) who obtains, from a financial institution, financial
products or services which are to be used primarily for personal, family, or household purposes. “Customer
relationship” is defined in the regulations as a continuing relationship between a consumer and the financial
institution which provided such financial products or services. As a general rule, in this report, we will use
“consumer” unless, in the particular context, “customer” would be more appropriate.
6
  Under Subtitle A, the term “affiliate” means any company that controls, is controlled by, or is under common
control with another company.


                                                           2
         unless the consumer is given an opportunity to opt out 7 of such disclosure. Such an
         opportunity is provided under Section 503, which states that financial institutions must
         provide consumers with privacy notices that include an explanation of the institution’s
         policies and practices for disclosing and protecting the privacy of nonpublic personal
         information.

         Regulatory Agency Responsibilities: Subtitle A requires various federal8 and state
         regulators to establish standards for financial institutions relating to the safeguarding of
         customer information (Section 501(b)) and to implement those standards, in the same
         manner, to the extent practicable, “as standards prescribed pursuant to section 39(a) of
         the Federal Deposit Insurance Act are implemented pursuant to such sections”
         (Sections 505(a) 9 and 505(b)). 10 In addition, the federal regulators are required to
         prescribe regulations (Section 504) governing the disclosure of customer information to
         nonaffiliated third parties.

Subtitle B of GLBA Title V

Subtitle B of GLBA Title V makes it a federal crime to obtain customer information through
fraudulent means (Section 521). It is also a violation of Section 521 “for any person to obtain or
attempt to obtain, or cause to be disclosed or attempt to cause to be disclosed to any person,”
customer information through fraudulent means or to solicit someone to obtain such information
through fraudulent means. Subtitle B provides for both criminal penalties and civil
administrative remedies through the Federal Trade Commission (FTC) and enforcement by
federal banking regulators. 11 Subtitle B places the primary responsibility for enforcing the
subtitle’s provisions with the FTC. However, with respect to financial institutions, the federal
banking regulators are required to enforce Subtitle B provisions in accordance with Section 8 of
the Federal Deposit Insurance (FDI) Act and may rely on other statutory enforcement authorities
the federal banking regulators possess.

Section 525 of Subtitle B requires each federal banking regulator to “review regulations and
guidelines applicable to financial institutions under their respective jurisdictions” and to
“prescribe such revisions to such regulations and guidelines as may be necessary to ensure that
such financial institutions have policies, procedures, and controls in place to prevent the


7
  A consumer’s direction to a financial institution that it not disclose his or her nonpublic personal information to a
nonaffiliated third-party.
8
  The federal regulators responsible for issuing Subtitle A regulations are the Board of Governors of the Federal
Reserve System, the FDIC, Federal Trade Commission, National Credit Union Administration, Office of the
Comptroller of the Currency, Office of Thrift Supervision, Secretary of the Department of the Treasury, Commodity
Futures Trading Commission, and the Securities and Exchange Commission.
9
  Under Section 505(a), federal banking regulators are to enforce the provisions of Subtitle A and related regulations
in accordance with Section 8 of the Federal Deposit Insurance Act (FDI Act) (12 U.S.C. § 1818), which contains
such enforcement mechanisms as a cease and desist order and civil money penalties. Other statutory enforcement
provisions apply in the case of the other federal and state regulators.
10
   Under Section 505(b), federal banking regulators are to implement Section 501(b) standards in the same manner,
to the extent practicable, as standards prescribed pursuant to Section 39(a) of the FDI Act (12 U.S.C. §1831 p-1(a)).
11
   For this report, federal banking regulators are the Board of Governors of the Federal Reserve System, FDIC,
Office of the Comptroller of the Currency, and the Office of Thrift Supervision.


                                                          3
unauthorized disclosure of customer financial information and to deter and detect” the
unauthorized disclosure of customer financial information by false pretenses. Pretext calling is
one common method used to fraudulently obtain a customer’s financial information from a
financial institution. Pretext calling can lead to “identity theft” -- the fraudulent use of an
individual’s personal identifying information to commit a financial crime.

Other Sections of GLBA Title V

GLBA Title V, Section 506, Protection of Fair Credit Reporting Act (FCRA), requires the
federal banking regulators to jointly prescribe FCRA regulations related to affiliate information-
sharing provisions, as necessary, with respect to financial institutions. The affiliate information-
sharing provisions have not yet been fully implemented, but are being addressed through
interagency proposed regulations still in process.

GLBA Title V requires that (1) the Secretary of the Treasury, in conjunction with federal
banking regulators and the FTC, prepare a report12 to the Congress by January 1, 2002, regarding
information-sharing practices among financial institutions and their affiliates; and (2) the
General Accounting Office (GAO) consult with the federal banking regulators in preparing a
report 13 on the efficacy of GLBA’s remedies for pretext calling.

FDIC Rules and Regulations

FDIC Rules and Regulations, Parts 364, 332, and 308, 14 implement the requirements of the
applicable sections of GLBA Title V, as follows:

        Part 364 – Standards for Safety and Soundness: Appendix B to Part 364, Interagency
        Guidelines Establishing Standards for Safeguarding Customer Information, sets forth
        standards pursuant to Section 39 of the FDI Act and GLBA Subtitle A’s customer
        information safeguarding and enforcement provisions. These guidelines address
        standards for developing and implementing administrative, technical, and physical
        safeguards to protect the security, confidentiality, and integrity of customer information.

        Part 332 – Privacy of Consumer Financial Information: Part 332 governs financial
        institutions’ 15 treatment of nonpublic personal information about consumers and
        (1) requires a financial institution to provide notice to customers about its privacy
        policies and practices; (2) describes the conditions under which a financial institution
        may disclose nonpublic personal information about consumers to nonaffiliated third
        parties; and (3) provides a method for consumers to prevent a financial institution from



12
   As of August 29, 2003, this report had not been finalized.
13
   GAO report on Financial Privacy entitled, Too Soon to Assess the Privacy Provisions in the Gramm-Leach-Bliley
Act of 1999, dated May 2001 (GAO-01-617).
14
   Codified to title 12 of the Code of Federal Regulations.
15
   Part 332 applies to financial institutions insured by the FDIC (other than members of the Federal Reserve System)
for which the FDIC has primary supervisory authority, insured state branches of foreign banks, and certain
subsidiaries of such entities.


                                                         4
       disclosing that information to most nonaffiliated third parties by “opting out” of that
       disclosure, subject to exceptions.

       Part 308, Subpart R – Submission and Review of Safety and Soundness Compliance
       Plans and Issuance of Orders to Correct Safety and Soundness Deficiencies: The
       FDIC may, based upon an examination, inspection, or any other information that
       becomes available to the FDIC, determine that a financial institution has failed to satisfy
       the safety and soundness standards set out in Part 364 and in Appendix B to Part 364. If
       the FDIC determines that a financial institution has failed to satisfy any such standard,
       the FDIC may request the submission of a compliance plan and may take appropriate
       enforcement actions if the financial institution fails to submit an acceptable plan or fails,
       in any material respect, to implement a plan accepted by the FDIC.

DSC’s Approach for Examining Standards for Safeguarding Customer Information

The DSC includes the standards for safeguarding customer information in its examination
procedures. Since 2001, the DSC has applied the following procedures:

•   The federal banking regulators developed examination procedures in 2001 to assist
    examiners in evaluating a financial institution’s compliance with customer information
    safeguards established by the federal banking regulators and to ensure that the established
    standards are applied consistently. The FDIC advised its financial institutions of these
    procedures through Financial Institution Letter FIL-68-2001, Examination Procedures to
    Evaluate Customer Information Safeguards, dated August 24, 2001. The DSC distributed
    the examination procedures to its examiners through a Regional Directors Memorandum
    (RDM) entitled, Examination Procedures to Evaluate Customer Information Safeguards,
    dated August 28, 2001, Transmittal Number 2001-032 (RDM 2001-032). The DSC
    instructed examiners to assess compliance with customer information safeguards during
    examinations started after July 1, 2001.

•   Examiners could also use the procedures contained in an Examination Documentation (ED)
    Module, “GLBA 501(b) – Safeguarding Customer Information.” The most recent version of
    this ED Module is dated April 2002. The FDIC and the Federal Reserve Board developed
    the ED Module to provide examiners with a tool to focus on risk management and to
    establish an appropriate examination scope. RDM 2001-039, entitled, Guidelines for
    Examination Workpapers and Discretionary Use of Examination Documentation Modules
    and dated September 25, 2001, provided for discretionary use of the ED Module.

•   On October 9, 2002, the FDIC issued FIL-118-2002, New Examination Procedures for
    Assessing Information Technology Risk, to advise financial institutions of DSC’s new
    program for IT risk at FDIC-supervised financial institutions. The FDIC’s program
    incorporated a new philosophy for categorizing financial institutions’ use of technology and
    consequential exposure to technology risk, along with updated and more risk- focused IT
    examination procedures. In FIL-118-2002, the FDIC identified and included two new work
    programs, IT-MERIT (Maximum Efficiency, Risk-Focused, Institution-Targeted) Procedures
    and an IT General Work Program, and provided the following descriptions.


                                                 5
       -   IT-MERIT examination procedures will be used by examiners conducting technology
           risk reviews at FDIC-supervised financial institutions with the least technology risk.
           These simplified procedures will greatly streamline the review process for financial
           institutions in this group.

       -   The IT General Work Program was developed to improve efficiencies by
           consolidating several existing technology-related work programs into a single work
           program and eliminating redundant review areas. This work program will be used by
           examiners conducting IT risk reviews at FDIC-supervised financial institutions with
           low to moderate technology risk. The work program replaces several previously
           issued work programs, such as the Electronic Banking Work program, Examination
           Procedures to Evaluate Customer Information Safeguards, the Community Bank
           Work Program, and others.

The DSC issued RDM 2002-043, entitled, Information Technology Maximum Efficiency, Risk-
Focused, Institution Targeted (IT-MERIT); and IT General Work Program Guidelines, dated
September 30, 2002, to implement the new examination guidelines and procedures.
RDM 2002-043 states that to address the different levels of risk posed by financial institutions
through their use of IT, four new categories were developed to describe an institution’s
technology risk profile: Type I, Type II, Type III, and Type IV financial institutions. Table 1
shows the examination procedures to be used for each type.




                                                6
Table 1: Technology Types and IT Examination Procedures
                                                                                              IT Examination
Category                               Description                                            Procedures
Type I   Limited networking and E-Banking activities; No in-house                             IT-MERIT
         programming or core processing; Minimal external threats; Primary                    Procedures
         risks are centered on the core banking system or vendor management;
         and No history of less than satisfactory examination ratings.
Type II  Limited networking and E-Banking activities; Usually do not conduct                  IT General Work
         in-house programming or servicing of other financial institutions;                   Program
         Minimal external threats; Primary risks are centered on the core
         banking system or vendor management; and a History of less than
         satisfactory examination ratings.
Type III Fully integrated networking within operations; Increased external                    IT General Work
         threats from E-Banking activities and Internet connections; and                      Program,
         Increased operational from limited programming activities or servicing               supplemented with
         responsibilities.                                                                    Federal Financial
                                                                                              Institutions
                                                                                              Examination
                                                                                              Council* (FFIEC)
                                                                                              Work Programs as
                                                                                              needed.
Type IV        Relies upon networks and other communication systems as a critical             FFIEC Work
               element of operations; Networking among business client and partners           Programs
               is common; Internet connectivity may be relied upon as a critical
               communications medium; Risk of compromise or access to critical
               systems from external sources is present; and Complexity of
               technology increases system administration and security risks.
  Source: RDM 2002-043 dated September 30, 2002.
* The FFIEC, established in March 1979, pursuant to Title X of the Financial Institutions Regulatory and Interest
Rate Control Act of 1978 (FIRICA – Pub. L. No. 95-630, codified to title 12. U.S.C. 3301 et seq.), is a formal
interagency body empowered to prescribe uniform principles, standards, and report forms for the federal
examination of financial institutions by the Board of Governors of the Federal Reserve System, the FDIC, the
National Credit Union Administration, the Office of the Comptroller of the Currency, and the Office of Thrift
Supervision and to make recommendations to promote uniformity in the supervision of financial institutions.

DSC’s Approach for Examining Privacy Notice Requirements

The FDIC and other federal banking regulators developed and approved examination procedures
to review supervised financial institutions for compliance with the joint regulation on Privacy of
Consumer Financial Information. On May 17, 2001, the FDIC issued to financial institutions
FIL-46-2001, FFIEC Compliance Examination Procedures for Part 332 – “Privacy of
Consumer Financial Information,” which provided the examination procedures to be used after
July 1, 2001. FDIC’s Division of Compliance and Consumer Affairs (DCA) 16 distributed the
interagency examination procedures to all DCA staff through a memorandum entitled,
Interagency Examination Procedures for Reviewing Compliance with Part 332 – Privacy of
Consumer Financial Information (Transmittal No. DCA 01-002), dated May 18, 2001.



16
     The FDIC merged the Division of Supervision and DCA into DSC effective July 1, 2002.


                                                         7
In June 2003, the DSC advised financial institutions of its revised compliance examination
process through FIL-52-2003, Compliance Examination Procedures. Under the new approach,
FDIC compliance examinations combine the risk-based examination process with an in-depth
evaluation of a financial institution’s compliance management system.


RESULTS OF EVALUATION

Overall, the FDIC has made reasonable progress in implementing GLBA Title V provisions
related to safeguarding customer information and privacy notice requirements and modest
progress in implementing provisions related to fraudulent access to financial information. Our
assessment of FDIC’s progress is based on an analysis of the Corporation’s and DSC’s efforts to
establish regulations, issue implementing guidelines to financial institutions, and develop and
implement procedures to examine financial institutions’ compliance with GLBA Title V
provisions.

Specifically, the FDIC established rules and regulations that appropriately address the applicable
provisions related to safeguarding customer information and privacy notice requirements and
established adequate guidance and examination procedures to help ensure that financial
institutions under its jurisdiction meet the safeguarding and privacy notice requirements. The
DSC assesses a financial institution’s compliance (1) with standards for safeguarding customer
information through IT examinations and (2) with privacy notice requirements through
compliance examinations. The GLBA Title V provisions related to FCRA-affiliate information
sharing have not yet been fully implemented, but are being addressed through proposed
interagency regulations still in process.

Regarding GLBA Title V provisions related to fraudulent access to financial information, the
FDIC issued guidance on identity theft and pretext calling to financial institutions, but DSC has
not established specific examination procedures to determine financial institutions’ compliance
with the guidance. (See Finding A: FDIC’s Progress in Implementing GLBA Title V --
Privacy Provisions .)

The FDIC has taken actions to implement the GLBA Title V provisions related to safeguarding
customer information and privacy notice requirements. However, we noted that several
management actions are needed related to DSC’s IT examination process.

   •   Establish examination procedures for ensuring that financial institutions have controls in
       place to prevent unauthorized disclosure of customer financial information (Subtitle B).
       Although the FDIC has issued guidance on identity theft and pretext calling to inform
       financial institutions about developments in these two areas of consumer bank fraud,
       DSC’s IT examination procedures do not include steps to specifically assess how banks
       protect customer information from unauthorized disclosure.

   •   Ensure consistency in assessing and reporting a financial institution’s level of compliance
       with standards for safeguarding customer information (Subtitle A). DSC’s IT General
       Work Program does not always specifically identify those procedures that are appropriate


                                                8
and necessary for assessing a financial institution’s compliance with these standards. If
examination procedures do not specifically reference the safeguarding standards under
review, the FDIC is at risk that key requirements may not be considered in assessing a
financial institution’s compliance with the standards.

Further, DSC has multiple guidelines at the headquarters and regional level that provide
differing instructions to examiners for reporting a financial institution’s compliance with
standards for safeguarding customer information. These guidelines vary from an
examiner’s use of exception reporting to combined reporting of noncompliance or level
of compliance. National DSC guidance on reporting compliance with the standards is
needed to promote consistency among DSC’s regional offices. (See Finding B: DSC’s
Examination Procedures for GLBA Title V -- Privacy.)




                                         9
FINDINGS AND RECOMMENDATIONS

FINDING A: FDIC’S PROGRESS IN IMPLEMENTING GLBA TITLE V -- PRIVACY
PROVISIONS

The FDIC made reasonable progress in implementing GLBA Title V Subtitle A’s provisions, as
demonstrated in the regulations, FILs, and other guidance the Corporation has issued to financial
institutions it supervises. In addition, the FDIC participated in interagency efforts and jointly
issued standards for safeguarding customer information, examination procedures to assess
compliance with those standards, and examination procedures to review compliance with privacy
notice requirements. However, the FDIC’s progress in implementing Subtitle B’s provisions is
modest. The Corporation issued guidance to its supervised financial institutions on identity theft
and pretext calling which referenced published guidelines on the safeguards financial institutions
can put into place to help prevent problems caused by pretext calling. However, as discussed in
Finding B, DSC has not established specific examination procedures to review a financial
institution’s compliance with the guidelines on pretext calling.

FDIC Rules and Regulations and FDIC Procedures that Address GLBA Title V Provisions

The FDIC has issued rules and regulations, guidance, and procedures that address most of the
GLBA Title V provisions. Table 2 illustrates FDIC’s activities for major GLBA Title V
provisions and shows that, as discussed in Finding B, DSC has not specifically identified
examination procedures related to Subtitle B. Appendix III lists all GLBA Title V privacy
provisions.




                                               10
Table 2: FDIC Rules, Guidance, and Implementing Procedures for Major GLBA Title V Privacy
Provisions
                                                   FDIC Rules and               Financial         DSC Examination
       Title V              Federal Register
                                                     Regulations           Institution Letters      Procedures
Subtitle A. – Disclosure of Nonpublic Personal Information

§501(b). Financial       Vol. 66, 8616 - 8641        Part 364, Standards   a) FIL-22-2001,       a) Examination
Institutions             (February 1, 2001)          for Safety and        March 14, 2001.       Procedures to
Safeguards and           Final Rule – Interagency    Soundness,            b) FIL-68-2001,       Evaluate Compliance
§505(b).                 Guidelines Establishing     Appendix B.           August 24, 2001.      with the Guidelines
Enforcement of           Standards for               Part 308,             c) FIL-118-2002,      to Safeguard
Section 501 –            Safeguarding Customer       Subpart R,            October 9, 2002.      Customer
Requires each            Information and             Submission and        d) FIL-11-2003,       Information.
“agency” to establish    Rescission of Year 2000     Review of Safety      February 12, 2003.    b) IT Examination
and implement            Standards for Safety and    and Soundness                               Procedures:
standards relating to    Soundness.                  Compliance Plans                            • IT Merit.
administrative,                                      and Issuance of                             • General Work
technical, and                                       Orders to Correct                                Program.
physical safeguards                                  Safety and                                  • FFIEC.
to protect nonpublic                                 Soundness
personal information.                                Deficiencies.
§502 – 504. The          Vol. 65, 35162 - 35236      Part 332, Privacy     a) FIL-34-2000,       Interagency
“agencies” shall         (June 1, 2000) Final Rule   of Consumer           July 5, 2000.         Examination
consult and              - Privacy of Consumer       Financial             b) FIL-3-2001,        Procedures for
coordinate in            Financial Information.      Information.          January 22, 2001.     Reviewing
developing                                                                 c) FIL-46-2001,       Compliance with
regulations necessary                                                      May 17, 2001.         Part 332.
to carry out purpose                                                       d) FIL-73-2001,
of Subtitle A.                                                             August 29, 2001.
                                                                           e) FIL-106-2001,
                                                                           December 20,
                                                                           2001.
§506(a). Amendment       Vol. 65, 63120 - 63141      Part 334 – Fair       a) FIL-71-2000,       DCA Memorandum
– Section 621 of the     (October 20, 2000)          Credit Reporting.a    October 26, 2000.     Transmittal Number
Fair Credit Reporting    Proposed Rule, Fair                               b) FIL-26-2001,        DCA-00-009,
Act is amended.          Credit Reporting                                  March 27, 2001.       Revised Interagency
                         Regulations.                                                            Examination
                                                                                                 Procedures for the
                                                                                                 Fair Credit
                                                                                                 Reporting Act, directs
                                                                                                 the resumption of
                                                                                                 routine examinations
                                                                                                 for compliance with
                                                                                                 the FCRA.
Subtitle B – Fraudulent Access to Financial Information

§525. Agencies to            Not Applicable b          Not Applicable      FIL-39-2001,          Discussed in
issue guidelines to                                                        May 9, 2001.          Finding B.
ensure consistency
with Subtitle B.
Source: OIG Analysis .
a
  The federal banking regulators anticipate issuing a new proposed rulemaking for public comments in response to
comments received on the October 20, 2000 proposal.
b
  This section of GLBA Title V did not require the creation of an FDIC rule and regulation or standard.




                                                        11
To verify DSC’s implementation, we selected and reviewed examination workpapers for a
judgmental sample of 11 IT examinations. In all cases, we confirmed that the examination team
used the appropriate examination procedures -- IT MERIT, IT General Work Program, or
alternative procedures 17 -- based on the complexity and risk of the financial institution’s
technology functions.

Internal Quality Assurance Review of the Privacy Examination Process

DSC’s Internal Control Review Section (ICRS ) issued a Report on the Quality Assurance Review
of the Privacy Examination Process, dated December 2002, which addressed compliance
examinations of privacy notice requirements conducted at FDIC-supervised financial institutions
during the first 3 months of 2002. The report identified the following findings: (1) workpaper
documentation did not consistently demonstrate that a thorough privacy examination was
completed; (2) examination procedures were not consistently employed to conduct privacy
examinations ; and (3) time associated with conducting the privacy exa mination was not
consistently reported in the Scheduling Hours and Reporting Package, a DSC system used to
monitor examination resources.

DSC developed an Action Plan to address the report findings and sent the Action Plan to
Regional Directors and Deputy Regional Directors (Compliance) on May 16, 2003. The Action
Plan conveyed clarifying information regarding GLBA Title V and identified responsibilities and
actions to be taken by management and examination staff to ensure improvements to the privacy
examination process. Table 3 presents a summary of the actions planned by DSC to address the
ICRS’s findings.

Table 3: DSC Action Plan Items
 Action Planned
 1. Using approved interagency procedures to conduct privacy examinations.
 2. Interviewing institution management to determine whether written policies and procedures reflect
     actual practices.
 3. Requesting and reviewing joint marketing agreements between the bank and third parties.
 4. Preparing a scope memorandum for the entire compliance examination.
 5. Preparing and filing examiner summaries with the workpapers.
 6. Establishing a baseline measurement that documents the degree to which each region has complied
     with actions 1-5 mentioned above.
 7. Ensuring that privacy issues are discussed in routine regional meetings and conference calls, as
     applicable.
 8. Identifying a privacy subject matter expert in each region and privacy points-of-contact in each of the
     field offices.
 9. Emphasizing privacy during Commissioned Compliance Examiner Workshops.
 10. Preparing a “Job Aid” to be used by examiners for interviewing bank staff.
 11. Conduct a follow-up review of the privacy examination process in October 2003.
  Source: DSC’s May 16, 2003 Memorandum to Regional Directors and Deputy Regional Directors (Compliance)
  from Deputy Director for Compliance and Consumer Protection.


17
  Of the 11 IT examinations we reviewed, 6 were Type I, Type II, or Type III financial institutions, and examiners
used the appropriate MERIT or IT General Work Program procedures; 2 were Type IV financial institutions, and
examiners used the FFIEC Work Programs, as supplemented by other procedures; 2 were data processing servicers;
and 1 was a vis itation.


                                                        12
For this evaluation, we did not review examination workpapers for privacy notice requirements
examinations because DSC was in the process of developing its Action Plan when we started our
review.

DSC Views on Financial Institutions ’ Compliance with GLBA

DSC officials responsible for IT examinations in FDIC’s San Francisco Regional Office and
Chicago Regional Office told us that the majority of FDIC-supervised financial institutions have
adopted some type of information security program as required under GLBA and the
implementing regulations. The examiners in the San Francisco Regional Office have
encountered a few isolated instances where financial institutions were in substantial
noncompliance with the standards for safeguarding customer information. For example, the
examiners found either an inadequate assessment or no comprehensive risk assessment, lack of
testing and monitoring of key controls, weak vendor/service provider oversight programs, and
failure to provide for adequate reporting to the Board of Directors. Chicago Regional Office
officials said that financial institutions’ information security programs usually fall short of fully
complying with the GLBA requirements. The Chicago Regional Office’s exa mination findings
often indicate that the information security program does not include all necessary elements; risk
assessments are incomplete and/or informal; audits do not fully test key controls, systems, and
procedures; and employee training and awareness initiatives are limited and infrequent.

Currently, DSC does not maintain formal statistics on instances of apparent noncompliance with
standards for safeguarding customer information identified during IT examinations. Although
we are not making formal recommendations in this regard, such statistics could be helpful in
identifying emerging issues and trends and in assessing whether the IT examination program is
achieving its desired outcomes. We encourage DSC to begin maintaining basic statistics.

The DSC does generate and maintain statistical information on noncompliance with privacy
notice requirements identified during compliance examinations. We obtained summary
information on the number and description of privacy notice deficiencies identified during
compliance examinations conducted within the first year of the GLBA Title V enactment.
Approximately 5 percent of the institutions that underwent a compliance examination were cited
for a violation of FDIC Rules and Regulations, Part 332. Generally, the smaller the institution,
the more often examiners found violations of Part 332. Some of the violations identified were
related to the following sections of Part 332:

   •   Section 332.6 – Information to be Included in Privacy Notices.
   •   Section 332.4 – Initial Privacy Notice to Consumers.
   •   Section 332.7 – Form of Opt Out Notice to Consumers and Opt Out Methods.
   •   Section 332.12 – Limits on Sharing Account Number Information for Marketing
       Purposes.




                                                 13
The DSC’s statistics for compliance examinations conducted in 2002 and early 2003 show the
most common deficiencies tend to deal with the omission of information from banks’ privacy
notices and incorrect disclosures of information wherein information in a privacy notice does not
always accurately reflect a financial institution’s information-sharing practices.




                                               14
FINDING B: DSC’S EXAMINATION PROCEDURES FOR GLBA TITLE V --
PRIVACY

The FDIC has made progress in implementing the GLBA’s Title V provisions related to
safeguarding customer information and privacy notice requirements, yet enhancements are
needed in the examination process to ensure financial institutions have controls in place to
prevent unauthorized disclosure of customer financial information and to provide consistency in
assessing and reporting a financial institution’s compliance with standards for safeguarding
customer information. DSC’s IT examination procedures do not include steps designed to
explicitly assess financial institutions’ compliance with the guidance issued for Subtitle B.
Without specific procedures, examinations may not be adequately assessing financial
institutions’ compliance with GLBA privacy provisions to prevent and detect fraudulent access
to financial information. Moreover, DSC’s IT General Work Program does not always
specifically designate those procedures relevant to determining a financial institution’s
compliance with safeguarding standards (Subtitle A). Without specific procedures designated as
addressing GLBA, the DSC cannot be assur ed that examiners will consider all relevant
examination procedures in assessing a financial institution’s compliance with the standards.
Finally, to promote consistency in reporting financial institutions’ compliance with these
standards, DSC national guidance is needed to standardize differing instructions provided to
examiners by regional and headquarters officials.

Subtitle B – Fraudulent Access to Financial Information

According to Section 525 in Subtitle B, the FDIC and other federal banking regulators are to
review their regulations and guidelines to ensure that financial institutions have policies,
procedures, and controls in place to prevent the unauthorized disclosure of customer financial
information and to deter and detect fraudulent access to such information. In response to these
requirements, the FDIC and the other federal banking regulators issued guidance on how banking
organizations should protect customer information against identity theft and pretext calling. The
FDIC advised the financial institutions of Guidance on Identity Theft and Pretext Calling
through FIL-39-2001 on May 9, 2001, and identified the guidance as a supplement to FDIC
guidelines on customer information security, issued February 1, 2001, pursuant to Section 501(b)
of the GLBA.

The Guidance on Identity Theft and Pretext Calling provides steps that financial institutions
should take to safeguard customer information and reduce the risk of loss from identity theft and
pretext calling, including the following:

   •   Establishing procedures to verify the identity of individuals applying for financial
       products.
   •   Establishing procedures to prevent fraudulent activities rela ted to customer information.
   •   Maintaining a customer information security program.
   •   Reporting suspected identity theft and pretext calling through Suspicious Activity
       Reports (SAR).
   •   Making available to customers information about how to prevent identity theft.



                                               15
However, DSC’s examination procedures do not identify steps specifically designed to review a
financial institution’s compliance with the guidance on pretext calling. For example, the work
program could include procedures to review:

     •   the measures taken by the financial institution to reduce the incidence of pretext calling,
         including limiting the circumstances under which customer information may be
         disclosed by telephone;
     •   the financial institution’s training activities to determine whether employees are made
         aware of ways to recognize and report possible indicators of attempted pretext calling; or
     •   a financial institution’s level of activity in identifying and tracking known or suspected
         criminal violations related to pretext calling and reporting such violations in a SAR.

Until the DSC establishes specific procedures for protecting customer financial information from
unauthorized disclosure, examinations may not adequately assess financial institutions’
compliance with guidance to prevent and detect fraudulent access to financial information.
The statutory requirements of Subtitle B do not explicitly require agencies to examine financial
institutions’ compliance with guidance on identity theft and pretext calling. However, the
legislative history of the GLBA Title V indicates a congressional expectation that federal
banking regulators should examine financial institutions’ compliance with regulators’ guidance
and the adequacy of those financial institutions’ controls relative to preventing and detecting
pretext calling. According to the House Commerce Committee Report (H.R. Report No. 106-74,
pt. 3, (1999)), Subtitle B provides additional protections against pretext calling by increasing the
then-existing penalties for fraudulent information gathering and gives the FTC specific directions
to prosecute violations. 18 The report states that, “Subtitle B recognizes the importance of
financial institutions implementing strong internal controls to prevent unauthorized disclosure of
their customers’ private financial information.” Regarding Section 525 of Subtitle B, the
congressional report indicates:

         This section requires each Federal banking agency and the SEC [Securities and Exchange
         Commission] or self-regulatory organizations to review its regulations and guidelines
         governing the protection of confidential consumer financial information and to revise
         such provisions as necessary to ensure appropriate confidentiality safeguards. Those
         safeguards will include those policies, procedures, and controls as would reasonably be
         expected to prevent and detect activities proscribed by the legislation. The Committee
         expects the appropriate examining authorities to include compliance with such guidelines
         and the adequacy of such internal controls in their examinations of these institutions
         [emphasis added].

DSC officials told us that Bank Secrecy Act (BSA) examination procedures include steps for
verification of controls and issuance of SARs; these areas relate to protecting customer
information. Further, DSC’s IT examination work programs include procedures related to
reviewing a financial institution’s information security program -- one of the safeguards


18
  The enacted version of Subtitle B includes the National Credit Union Administration in Section 525 and provides
the federal banking regulators with administrative enforcement powers with respect to financial institutions under
their respective jurisdictions.


                                                       16
identified in the guidance on pretext calling. However, DSC’s IT examination work programs do
not specifically or clearly identify the information security program steps or other procedures
that would assist examiners in determining compliance with the guidance on identity theft and
pretext calling.

DSC officials acknowledge that IT examination work programs do not specifically include
procedures for determining a financial institution’s compliance with guidance on pretext calling.
However, DSC officials were not certain which examination (i.e., IT examination, safety and
soundness, or compliance) should include these procedures. Accordingly, our recommendation
to include steps for assessing financial institutions’ compliance with the guidance on pretext
calling references DSC’s examination procedures in general rather than a specific type of
examination.

Procedures for Examining Standards for Safeguarding Customer Information

The FDIC initially advised financial institutions of its examination procedures to evaluate
compliance with the standards for safeguarding customer information through FIL-68-2001,
dated August 24, 2001. These examination procedures were developed on an interagency basis
to promote consistency among the federal banking regulators. The DSC distributed the
interagency procedures to its examiners through RDM 2001-032 on August 28, 2001.

The interagency procedures included the following examination objective: “Determine whether
the financial institution has established an adequate written Information Security Program and
whether the program complies with the Guidelines Establishing Standards for Safeguarding
Customer Information mandated by section 501(b) of the Gramm- Leach-Bliley Act of 1999.”
The interagency procedures contained key questions and considerations that examiners should
take into account when assessing the adequacy of a financial institution’s information security
program and grouped the work steps into five categories addressing the major provisions of the
standards for safeguarding customer information. Table 4 shows the five categories and
examples of a key question for each category.




                                               17
Table 4: Interagency Procedures – Categories and Key Questions
                    Category                                       Key Question
 Determine the involvement of the Board of       Has the Board or its designated committee
 Directors in the Information Security           approved a written Corporate Information
 Program.                                        Security Program that meets the requirements
                                                 of the Information Security Guidelines?
 Evaluate the risk assessment process.           How does the institution assess risk to its
                                                 customer information systems and nonpublic
                                                 customer information?
 Evaluate the adequacy of the program to         Review internal controls and policies. Are the
 manage and control risk.                        controls adequate to support risk mitigation
                                                 judgments?
 Assess the measures taken to oversee service    Do contracts require service providers to
 providers.                                      implement appropriate measures to meet the
                                                 objectives of the standards for safeguarding
                                                 customer information?
 Determine whether an effective process exists   Does the institution have an effective process
 to adjust the information security program.     to adjust the information security program as
                                                 needed? Is the appropriate person assigned
                                                 responsibility for adjusting the program?
Source: RDM 2001-032.

The interagency procedures clearly indicated that the work steps were intended to be in support
of assessing the financial institutions’ compliance with the standards for safeguarding customer
information. The interagency procedures also included steps to summarize the procedures
performed and to communicate findings related to assessing compliance with the standards for
safeguarding customer information.

In September 2002, the DSC issued new examination guidelines and related streamlined
procedures for IT examinations, including two new work programs, IT-MERIT and IT General
Work Program. The IT General Work Program replaced various work programs, including the
interagency procedures for evaluating the standards for safeguarding customer information. The
IT General Work Program consists of work program questions (procedures) that are linked to a
“Help” section for examiners to use, when needed. The “Help” section provides a description of
the purpose of each work step question and the risk to the financial institution if the question is
not addressed or implemented in an acceptable manner.

Unlike the interagency procedures, DSC’s IT General Work Program is not structured to include
key questions or considerations that an examiner would take into account in assessing the
financial institution’s compliance with the standards for safeguarding customer information.
Further, DSC’s new IT examination procedures do not include steps or references to specific
procedures in the work program to assess compliance with the standards for safeguarding
customer information. In addition, DSC’s examination procedures do not include steps to
summarize and communicate the results of the examiner’s work related to evaluating compliance
with the standards for safeguarding customer information.

We determined that 42 of the 67 procedures in the IT General Work Program relate to the
standards for safeguarding customer information, but we identified only 1 procedure that


                                                  18
explicitly references GLBA and 1 procedure that cites a GLBA requirement, namely
“Information Security Guidelines.” As shown in Table 5, we identified six references to the
topic of safeguarding customer information in the “Help” section of the IT General Work
Program.

Table 5: References to the Standards for Safeguarding Customer Information in the IT
General Work Program “Help” Section
       IT General Work Program                      “Help” Section References to GLBA
        Examination Procedure                       Customer Information Safeguarding
 Audit                                      Help Section Q1d – Does the internal and/or external
 1d. Does the internal and/or external      auditor or designated officer review the
 auditor or designated officer or           following...”Compliance with Section 501(b) of the
 employee review the following…             Gramm-Leach-Bliley Act?”
 “Compliance with Section 501(b) of the
 Gramm-Leach-Bliley Act?”
 IT Policies                                Help Section Q2.1a –
 2.1a. Has the board or its designated      Ø Section 501(b) of the Gramm-Leach-Bliley Act
 committee approved a written Corporate         (GLBA) of 1999 requires each institution to
 Information Security Program that              implement a comprehensive written information
 meets the requirements of the                  security program.
 Information Security Guidelines?           Ø For additional information see: FDIC Rules and
                                                Regulations – Part 364, Appendix B.
 IT Policies                                Help Section Q2.1c (paraphrased) –
 2.1c. Consider the following when          Ø Accordingly, the GLBA guidelines indicate that
 evaluating the Risk Assessment                 institutions should consider the sensitivity of
 process…                                       customer information.
                                            Ø Under the GLBA guidelines, a financial institution
                                                should identify the threats that could result in
                                                alteration of customer information systems.
 IT Policies                                Help Section Q2.1e – Staff should be trained on
 2.1e. Is staff adequately trained to       information security and privacy guidelines
 implement the security program?            promulgated by GLBA.
 IT Policies                                Help Section Q2.1h – Each bank should report to its
 2.1h. Determine the usefulness of risk     Board on the status of its information security program
 assessment reports from management to      and the bank’s compliance with the GLBA guidelines.
 the board (or its designated committee).
 Support and Delivery                       Help Section Q4d – Controls over computer output
 4d. Is computer output (printouts,         must meet the requirements of Section 501(b) of the
 microfiche, optical disks, etc.)           Gramm-Leach-Bliley Act.
 adequately controlled and disposed of?
 Source: OIG Analysis and DSC IT General Work Program.




                                                  19
Table 6 illustrates IT General Work Program procedures that relate to the standards for
safeguarding customer information but are not specifically identified in the procedures as related
to GLBA.

Table 6: Example of GLBA-Related Examination Procedures that Do Not Reference
GLBA
     IT General Work Program and                  Relates to GLBA Standards (Part 364) for
        Examination Procedure                        Safeguarding Customer Information
 IT Policies                                Each bank shall: (1) identify internal and external
 2.1d. Review written policies and          threats that could result in unauthorized disclosure,
 procedures and determine whether the       misuse, alteration, or destruction of customer data or
 following controls have been               customer information systems; (2) assess the
 considered.                                likelihood and potential damage of these threats,
                                            taking into consideration the sensitivity of customer
                                            information; and (3) assess the sufficiency of policies,
                                            procedures, customer information systems, and other
                                            arrangements in place to control risks.
 Vendor Management                          Each bank shall oversee service provider
 2.2a. Does the bank have a vendor          arrangements.
 oversight program that includes
 analyzing financial statements and other
 reports on its significant vendor(s)
 and/or servicer(s)?
 Support and Delivery                       Each bank shall design its information security
 4a. Is separation of duties and            program with security measures to include dual
 responsibilities adequate in the           control procedures, segregation of duties, and
 following areas…                           employee background checks for employees with
                                            responsibilities for or access to customer information.
 Data and Physical Security                 Each bank shall design its information security
 4.1i. Are adequate safeguards in effect    program with security measures to include access
 to ensure that only authorized personnel   restrictions at physical locations containing customer
 are permitted in the computer area?        information to permit access only to authorized
                                            individuals.
 Source: OIG Analysis, DSC IT General Work Program, and FDIC Rules and Regulations Part 364, Appendix B.


Without specific procedures designated as addressing GLBA, the DSC cannot be assured that
examiners will consider all relevant examination procedures in assessing a financial institution’s
compliance with standards for safeguarding customer information.

In regard to reporting a financial institution’s compliance with standards for safeguarding
customer informa tion, we noted disparities in DSC’s examination reporting guidance. DSC’s
guidance for its new risk- focused IT examination procedures (RDM 2002-043) does not identify
the standards for safeguarding customer information reporting requirements. However, DSC
guidance (RDM 2001-032), which is still in effect, instructs examiners to note material instances
of noncompliance in the report of examination. We also noted that regional DSC guidance
varied from instructing examiners to report levels of compliance to instructing examiners to
report on instances of noncompliance. Table 7 illustrates the different reporting guidelines.



                                                   20
Table 7: DSC’s Guidelines on GLBA Reporting
        Guidelines                                        Reporting Instructions
RDM 2001-032:                  Material instances of non-compliance should be noted in the report of
Examination Procedures to      examination and discussed with bank management. Serious weaknesses
Evaluate Customer              and management’s response should be documented where appropriate in
Information Safeguards.        the report of examination (i.e., the risk management pages, the
                               Examination Conclusions and Comments page, and the Apparent
                               Violations page).
Region 1. Memorandum           In addition to including an introductory paragraph related to a review of
from Regional Director to      safeguarding customer information, each report must address the bank’s
Examiners and Assistant        compliance with the provisions of section 501(b) of GLBA and
Examiners.                     Appendix B. The length of the report comment is expected to vary based
                               on the size and complexity of the institution being examined and the
                               number of section 501(b) of GLBA and Appendix B exceptions. In
                               institutions where management is well aware of the GLBA requirements,
                               and is in full compliance, the comment need only state that compliance
                               with GLBA was reviewed and that the bank is in compliance with all
                               requirements.
Region 2. Memorandum           When a bank has an acceptable program for the safeguarding of customer
from Regional Director to      information and no material findings are noted, such cases include a brief
DSC Risk Management            overview of the program in the confidential section of the Report. If the
Examiners, Assistant           program has minor deficiencies, a comment ‘recommending that the bank
Examiners and Professional     review the Interagency Guidelines Establishing Standards for
Staff.                         Safeguarding Customer Information (Appendix B to Part 364 of the FDIC
                               Rules and Regulations)’ may be appropriate. When findings are
                               sufficiently deficient, they should be placed on the examination
                               conclusions and supporting pages of the IT Report of Examination.
Region 3. Memorandum           Examiners should continue to assess compliance with the Guidelines at all
from Regional Director to      Safety and Soundness and/or Information Technology examinations.
Field Examiners and            Weaknesses should generally be documented in the Information
Regional Office Professional   Technology Assessment pages; however, material instances of non-
Staff.                         compliance may be detailed on the Violations page as a Contravention of
                               Part 364, Appendix B. Material instances of non-compliance should also
                               be brought forward to the Risk Management and Examination
                               Conclusions and Comments pages, where appropriate.
Source: RDM 2001-032 and Regional Guidance.

DSC issued RDM 2001-045, Revised Report of Examination, on October 11, 2001, as guidance
for examiners to use in preparing reports of examination. DSC has taken the position that the
report of examination in and of itself constitutes adequate documentation of the work performed
and provides the basis for conclusions reached. Further, DSC officials stated that the report of
examination has been the primary basis and support for legal proceedings. Additionally, the
DOS [Division of Supervision] Manual of Examination Policies recognizes that the report of
examination generally serves as the FDIC’s primary evidentiary exhibit in formal administrative
actions. For these reasons, consistency in reporting on compliance with GLBA Title V privacy
provisions is important.




                                                  21
CONCLUSIONS AND RECOMMENDATIONS

Although the FDIC has made progress in implementing the GLBA’s Title V provisions related to
safeguarding customer information and privacy notice requirements, the FDIC could take
additional steps to help ensure full implementation of the GLBA Title V privacy provisions. To
ensure that financial institutions have policies, procedures, and controls in place to prevent the
unauthorized disclosure of customer financial information and to deter and detect fraudulent
access to such information (Subtitle B), DSC needs to identify specific procedures in its
examination work programs for examiners to assess the financial institutions’ compliance with
guidance on protecting customer information against identity theft. To promote consistency in
assessing and reporting on a financial institution’s compliance with standards for safeguarding
customer information (Subtitle A), DSC should identify the specific procedures in the IT General
Work Program that are designed to assess compliance with the safeguarding standards. Further,
DSC should standardize its guidance related to reporting the results of evaluating a financial
institution’s compliance with the standards for safeguarding customer information.

We recommend the Director, DSC:

 (1) Modify examination procedures to identify steps for assessing financial institutions’
     compliance with GLBA Title V, Subtitle B, provisions intended to prevent the
     unauthorized disclosure of customer financial information and to deter and detect
     fraudulent access to such information.

 (2) Include in the IT General Work Program (a) procedures for summarizing the work
     performed in the area of GLBA Title V, Subtitle A, provisions for safeguarding customer
     information and (b) references to the specific procedures that examiners should consider
     when assessing compliance with those provisions.

 (3) Issue guidance to be used by all regions regarding the manner in which a financial
     institution’s compliance with standards for safeguarding customer information is addressed
     in a report of examination.


CORPORATION COMMENTS AND OIG EVALUATION

The Director, DSC, provided a written response, dated September 24, 2003, to a draft of this
report. DSC’s response is presented in its entirety in Appendix IV to this report. We also had
subsequent discussions with DSC staff to clarify aspects of the written response.

DSC concurred with recommendations 1 and 3. DSC partially concurred with recommendation
2, but presented an alternative corrective action that addresses the intent of this recommendation.
Specifically, DSC agreed with the intent of recommendation 2 but stated that the IT General
Work Program was purposely written in general terms to serve as an all- inclusive document that
replaced several existing IT work programs, including examination procedures to evaluate
customer information safeguards. To address this recommendation, DSC agreed to issue
guidance to examiners in the form of an RDM that will identify specific procedures that


                                                22
examiners should consider when assessing compliance with GLBA Title V, Subtitle A,
provisions and procedures for summarizing the work performed in this area. DSC stated that the
RDM will be issued by December 31, 2003.

DSC’s comments were responsive, and DSC’s proposed actions are sufficient to resolve the
recommendations. The recommendations will remain undispositioned and open for reporting
purposes until we have determined that agreed-to corrective actions have been completed and are
effective. Appendix V presents a summary table showing DSC’s responses to our three
recommendations.




                                              23
                                                                                     APPENDIX I



                       OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our evaluation was to determine whether DSC has made reasonable progress in
implementing Title V privacy provisions of the GLBA. This evaluation addressed both
Subtitle A – Disclosure of Nonp ublic Personal Information and Subtitle B – Fraudulent Access
to Financial Information.

To accomplish our objective, we performed the following work:

•   Identified and reviewed laws, regulations, guidance, and procedures related to the FDIC’s
    responsibilities in the area of consumer financial privacy in order to gain an understanding of
    FDIC’s responsibilities in implementing GLBA Title V provisions and DSC’s approach to
    conducting examinations of financial institutions’ compliance with consumer privacy
    requirements.

     1. Gramm- Leach-Bliley Act of 1999, Title V -- Privacy.
     2. Federal Deposit Insurance Act, Section 8.
     3. FDIC Rules and Regulations, Part 334 Proposed Rule, Fair Credit Reporting
        Regulations.
     4. FDIC Rules and Regulations, Part 332, Privacy of Consumer Financial Information.
     5. FDIC Rules and Regulations, Part 364, Standards for Safety and Soundness,
        Appendix B, Interagency Guidelines Establishing Standards for Safeguarding Customer
        Information.
     6. FDIC Rules and Regulations, Part 308, Subpart R, Submission and Review of Safety and
        Soundness Compliance Plans and Issuance of Orders to Correct Safety and Soundness
        Deficiencies.
     7. DSC Regional Directors Memorandum (RDM) 2001-032, dated August 28, 2001,
        entitled Examination Procedures to Evaluate Customer Information Safeguards.
     8. RDM 2002-043, dated September 30, 2002, entitled Information Technology Maximum
        Efficiency, Risk-Focused, Institution Targeted (IT-MERIT); and IT General Work
        Program Guidelines.
     9. RDM 2001-045, dated October 11, 2001, entitled Revised Report of Examination.
    10. Division of Compliance and Consumer Affairs (DCA) Director’s Memorandum
        DCA 01-002, dated May 18, 2001, entitled Interagency Examination Procedures for
        Reviewing Compliance with Part 332 – Privacy of Consumer Financial Information.
    11. DSC Examination Procedures to Evaluate Compliance with the Guidelines to Safeguard
        Customer Information Safeguards, as of August 28, 2001.
    12. DSC IT Examination Procedures as of September 30, 2002, including: (a) Integrated
        Examination Guidelines, (b) Technology Profile Script, (c) IT Examination
        Questionnaire, (d) Request List, (e) IT-MERIT Examination Procedures, and (f) IT
        General Work Program.
    13. Interagency Examination Procedures for Reviewing Compliance with Part 332 – Privacy
        of Consumer Financial Information.




                                                24
                                                                                   APPENDIX I


•   Coordinated with FDIC OIG Counsel’s office to obtain a legal review or interpretation
    regarding: (1) evaluation approach; (2) our Summary Crosswalk of GLBA Title V
    Provisions to FDIC Rules and Regulations and FDIC Examination Procedures and related
    crosswalks; and (3) Subtitle B requirements.

•   Reviewed Financial Institution Letters related to GLBA consumer privacy matters to gain an
    understanding of GLBA Title V requirements for federal banking regulators and financial
    institutions.

•   Interviewed DSC officials in Washington, D.C., who are responsible for implementing
    DSC’s IT and compliance examination approaches for consumer privacy. We interviewed
    DSC officials in three FDIC regional offices in San Francisco, Chicago, and Dallas/Memphis
    who are responsible for implementing DSC’s IT examination procedures related to consumer
    privacy.

•   To verify implementation of DSC’s examination procedures to assess financial institutions’
    compliance with the standards for safeguarding customer information, we reviewed
    examinatio n workpapers for 11 sampled IT examinations. The sample of IT examinations
    was selected by another OIG Corporate Evaluations team performing the evaluation of
    Business Continuity at FDIC Supervised Institutions (Assignment Number 2003-006). Due
    to the common focus of both evaluations, i.e., the IT examination process and the timing of
    both assignments, we used the sample of IT examinations selected by the team conducting
    the business continuity evaluation.

•   The sample focused on IT examinations that started after January 1, 2003 and ended before
    May 22, 2003 in order to capture IT examinations that were conducted after issuance of the
    revised IT examination guidelines in September 2002. Two exceptions to this scope were:
    (1) an IT examination that was conducted in 2002, but had a related “visitation” in 2003; and
    (2) a Multi-Regional Data Processing Servicer (MDPS) examination that was performed in
    May 2002. This May 2002 MDPS examination was selected because it was the most recent
    MDPS examination for which the FDIC was the lead agency. To gain an understanding of
    the relative differences in DSC’s approach, the team conducting the business continuity
    evaluation judgmentally selected IT examinations for institutions that were located in large
    metropolitan areas with various asset sizes and complexities.

    Our sample was composed of the following:

                                              NUMBER OF SAMPLED
                              TYPE               INSTITUTIONS
                       I                               1
                       II                              1
                       III                             4
                       IV                              2
                       Data Processing
                       Servicers                           2
                       Visitation                          1



                                               25
                                                                                       APPENDIX I


•      For the sampled examinations, we reviewed, when available, the following documents in the
       examination workpapers:

           o    Report of Examination.
           o    Technology Profile Script.
           o    IT Examination Questionnaire.
           o    Request Lists and Entry Letter.
           o    Pre-examination planning memorandum.
           o    On-site examination procedures and work programs used and examiner’s
                documentation of work performed.

•      We interviewed the Examiner-in-Charge (EIC) for each of the sampled examinations to
       obtain an understanding of procedures performed to assess the financial institutions’
       compliance with standards for safeguarding customer information.

•      We performed a cursory review of the workpapers related to the examination that was
       performed in 2002, but had a related “visitation” in 2003. We reviewed the workpapers
       related to GLBA to determine which procedures were performed in 2002 and at the
       visitation. In addition, we contacted the EIC for this visitation and asked the standard
       questions we asked of the other EICs.

•      We gained an understanding of the management control activities associated with the
       implementation of GLBA Title V by reviewing DSC’s examination procedures and through
       interviews with DSC management and EICs. Our testing of FDIC’s compliance with laws
       and regulations was limited to those sections of GLBA Title V applicable to the FDIC. We
       developed a crosswalk between GLBA Title V and FDIC Rules and Regulations, and DSC’s
       examination policies and procedures. We did not test for fraud or illegal acts or determine
       the reliability of computer-processed data obtained from the FDIC’s computerized systems.

•      Our work to address the Government Performance and Results Act 19 included reviewing the
       FDIC 2001-2006 Strategic Plan to identify any goals related to GLBA Title V -- Privacy.
       We also reviewed the FDIC’s 2003 Annual Performance Plan, in particular, the plan for the
       Supervision Program, to identify strategic goals, objectives, or annual performance goals that
       relate directly to GLBA privacy. The 2001-2006 Strategic Plan and the 2003 Annual
       Performance Plan included the strategic goal: “Consumers’ rights are protected and FDIC
       supervised institutions invest in their communities.” However, we did not identify specific
       goals or objectives that mentioned GLBA Title V -- Privacy provisions.

We performed field work in the DSC headquarters in Washington, D.C.; San Francisco Regional
Office; Chicago Regional Office; and Memphis Regional Office. We conducted our evaluation
from April 2003 through August 2003, in accordance with generally accepted government
auditing standards.



19
     Pub. L. No. 103-62, codified in titles 5, 31, and 39, U.S.C.


                                                             26
                                                               APPENDIX II



                  ACRONYMS USED IN REPORT


BSA       Bank Secrecy Act

DCA       Division of Compliance and Consumer Affairs

DSC       Division of Supervision and Consumer Protection

ED        Examination Documentation

EIC       Examiner-In-Charge

FCRA      Fair Credit Reporting Act

FDI Act   Federal Deposit Insurance Act

FDIC      Federal Deposit Insurance Corporation

FFIEC     Federal Financial Institutions Examination Council

FIL       Financial Institution Letter

FTC       Federal Trade Commission

GAO       General Accounting Office

GLBA      Gramm- Leach-Bliley Act of 1999

H.R.      U.S. House of Representatives

ICRS      Internal Control and Review Section

IT        Information Technology

MDPS      Multi- Regional Data Processing Servicer

OIG       Office of Inspector General

RDM       Regional Directors Memorandum

SAR       Suspicious Activity Report




                                    27
                                                                                                                                 APPENDIX III


                                 SUMMARY CROSSWALK OF GLBA TITLE V PROVISIONS TO
                                 FDIC RULES AND REGULATIONS AND FDIC PROCEDURES

   GLBA Title V Section                FDIC Rules and              Financial Institution Letters (FIL) and/or DSC Examination
   Number and Heading                   Regulations                         Procedures (OIG Comments are in Bold)

                                     Subtitle A – Disclosure of Nonpublic Personal Information
501. Protection of Nonpublic Personal Information.
501(a) Privacy Policy.            [Financial Institution       [Financial Institution Responsibility]
                                  Responsibility]
501(b) Financia l Institutions    Part 364, Standards for      FIL-22-2001, Guidelines Establishing Standards for Safeguarding Customer
Safeguards.                       Safety and Soundness,        Information, dated March 14, 2001, describes the agencies’ expectations for a
                                  Appendix B – Interagency     financial institution to create, implement, and maintain an information security
                                  Guidelines Establishing      program that includes administrative, technical, and physical safeguards
                                  Standards for Safeguarding   appropriate to the size and complexity of the financial institution and the
                                  Customer Information.        nature and scope of its activities.
                                                               FIL-68-2001, Examination Procedures to Evaluate Customer Information
                                                               Safeguards, dated August 24, 2001, provided financial institutions the
                                                               examination procedures to assist them in their compliance efforts.
                                                               RDM 2001-032, Examination Procedures to Evaluate Customer Information
                                                               Safeguards, issued by the FDIC on August 28, 2001, to distribute examination
                                                               procedures to determine compliance with Appendix B to Part 364.
                                                               FIL-118-2002, New Examination Procedures for Assessing Information
                                                               Technology Risk , dated October 9, 2002, announced new examination
                                                               procedures for assessing information technology (IT) risk.




                                                                   28
                                                                                                                                 APPENDIX III


   GLBA Title V Section               FDIC Rules and               Financial Institution Letters (FIL) and/or DSC Examination
   Number and Heading                  Regulations                          Procedures (OIG Comments are in Bold)
                                                               RDM 2002-043, Information Technology Maximum Efficiency, Risk-Focused,
                                                               Institution Targeted (IT-MERIT); and IT General Work Program Guidelines,
                                                               issued by the FDIC on September 30, 2002:
                                                                   •    IT-MERIT procedures used for banks with the least technology risk.
                                                                   •    IT General Work Program used for banks with low to moderate
                                                                        technology risk.
                                                                   •    IT General Work Program supplemented with FFIEC Work Programs
                                                                        used for banks having fully integrated networking into their
                                                                        operations.
                                                                   •   FFIEC Work Programs used for banks relying upon networks and
                                                                       other communication systems as a critical element of their operations.
                                                               FIL-11-2003, New Information Security Guidance for Examiners and
                                                               Financial Institutions, dated February 12, 2003, describes the new FFIEC
                                                               booklet with revised guidance for identifying institutions' information security
                                                               risks and evaluating their risk-management practices.


502. Obligations with Respect to Disclosures of Personal Information.
502(a) Notice Requirements.      Part 332, Privacy of          FIL-34-2000, Final Rule on the Privacy of Consumers' Financial Information,
                                 Consumer Financial            dated June 5, 2000, notified financial institutions of the issuance of the final
                                 Information.                  rule on the privacy of consumers' financial information.
                                 Section 332.1(a) Purpose      FIL-3-2001, FDIC Creates Privacy Rule Handbook to Assist Banks With
                                 and scope                     Compliance, dated January 22, 2001, provided a Privacy Rule Handbook ,
                                                               produced by the FDIC, to help financial institutions comply with the final rule
                                 •   Requires a financial      governing the privacy of consumer financial information and implement
                                     institution to provide    effective consumer privacy policies.
                                     notice to customers
                                     about its privacy         FIL-46-2001, FFIEC Compliance Examination Procedures for Part 332 –
                                     policies and practices.   “Privacy of Consumer Financial Information,” dated May 17, 2001,
                                                               announced FFIEC-developed examination procedures to be used to review

                                                                   29
                                                                                                                        APPENDIX III


GLBA Title V Section       FDIC Rules and                Financial Institution Letters (FIL) and/or DSC Examination
Number and Heading          Regulations                           Procedures (OIG Comments are in Bold)
                                                     supervised financial institutions for compliance with the agencies’ regulation
                                                     on Privacy of Consumer Information.

                       •   Describes the             FDIC’s Division of Compliance and Consumer Affairs (DCA) issued a
                           conditions under which    memorandum (Transmittal No. DCA 01-002) on May 18, 2001, to all DCA
                           a financial institution   staff distributing the approved examination procedures developed by the
                           may disclose nonpublic    FFIEC. FFIEC procedures were effective for compliance examinations
                           personal information      beginning after July 1, 2001.
                           about consumers to            •    FFIEC’s examination procedures include steps to: identify the
                           nonaffiliated third                financial institution’s information sharing practices with affiliates and
                           parties.                           nonaffiliated third parties; determine how the institution treats
                       •   Provides a method for              nonpublic personal information; and determine the manner in which
                           consumers to prevent a             the institution administers its opt-out rules. Depending on the
                           financial institution              institution’s information-sharing practices, examiners are directed to
                           from disclosing that               complete various modules within the procedures. There are six
                           information to most                modules. The procedures include an examination checklist containing
                           nonaffiliated third                50 questions designated for “Yes/No” responses.
                           parties by “opting out”
                           of that disclosure,       FIL-73-2001, Federal Financial Institutions Examination Council CD-ROM
                                                     on Financial Privacy and Information Security, dated August 29, 2001,
                           subject to exceptions.
                                                     distributed a CD-ROM that contained 12 multimedia presentations with audio
                                                     accompaniment addressing consumer financial privacy, including all aspects
                                                     of the new privacy rule and the 501(b) security guidelines.
                                                     FIL-106-2001, Frequently Asked Questions for the Privacy Regulation, dated
                                                     December 20, 2001, developed with the other federal financial institution
                                                     regulatory agencies, was issued as answers to "frequently asked questions" that
                                                     represent clarifications and interpretations of the final rule governing the
                                                     privacy of consumer financial information.




                                                         30
                                                                                                                  APPENDIX III


   GLBA Title V Section           FDIC Rules and                Financial Institution Letters (FIL) and/or DSC Examination
   Number and Heading              Regulations                           Procedures (OIG Comments are in Bold)
502(b) Opt Out.              Section 332.7 Form of opt      FFIEC Procedures, Part A and Module 1.
                             out notice to consumers; opt
                             out methods.
                             Section 332.9 Delivering
                             privacy and opt out notices.
                             Section 332.13 Exception to
                             opt out requirements for
                             service providers and joint
                             marketing.
                             Section 332.15 Other
                             exceptions to notice and opt
                             out requirements.
502(c) Limits on Reuse of    Section 332.11 Limits on       FFIEC Procedures, Part A and Modules 4 and 5.
Information.                 redisclosure and reuse of
                             information.
502(d) Limitations on the    Section 332.12 Limits on       FFIEC Procedures, Part A and Module 6.
Sharing of Account Number    Sharing account number
Information for Marketing    information for marketing
Purposes.                    purposes.
502(e) General Exceptions.   Section 332.14 Exceptions      FFIEC Procedures, Part A and Module 1.
                             to notice and opt out
                             requirements for processing
                             and servicing transactions.
                             Section 332.15 Other
                             exceptions to notice and opt
                             out requirements.




                                                                31
                                                                                                                              APPENDIX III


   GLBA Title V Section                FDIC Rules and                 Financial Institution Letters (FIL) and/or DSC Examination
   Number and Heading                   Regulations                            Procedures (OIG Comments are in Bold)
503. Disclosure of Institution Privacy Policy.
503(a) Disclosure Required.       Section 332.4 Initial privacy   FFIEC Procedures, Part A and Module 1.
                                  notice to consumers
                                  required.
                                  Section 332.5 Annual
                                  privacy notice to customers
                                  required.
                                  Section 332.8 Revised
                                  Privacy Notices.
                                  Section 332.9 Delivering
                                  privacy and opt out notices.
503(b) Information To Be          Section 332.6 Information to    FFIEC Procedures, Part A and Module 1.
Included.                         be included in privacy
                                  notices.
504. Rulemaking.
504(a) Regulatory Authority.      Part 364, Appendix B,
                                  Interagency Guidelines
                                  Establishing Standards for
                                  Safeguarding Customer
                                  Information.
                                  Part 332 Privacy of
                                  Consumer Financial
                                  Information.
                                  Part 334 Fair Credit
                                  Reporting (proposed).
504(b) Authority To Grant         Not Applicable                  The regulations do not prescribe any “additional exceptions” to
Exceptions.                                                       subsection (a) through (d) of section 502.

                                                                      32
                                                                                                                                APPENDIX III


   GLBA Title V Section                FDIC Rules and               Financial Institution Letters (FIL) and/or DSC Examination
   Number and Heading                   Regulations                          Procedures (OIG Comments are in Bold)
505. Enforcement
505(a) In General.                 Not Applicable – Covered
                                   under Section 8 of the FDI
                                   Act.
505(b) Enforcement of Section      Section 364.101(b); Part
501.                               364, Appendix B.
                                   Interagency Guidelines
                                   Establishing Standards for
                                   Safeguarding Customer
                                   Information.
                                   Part 308, Subpart R,
                                   Submission and Review of
                                   Safety and Soundness
                                   Compliance Plans and
                                   Issuance of Orders to
                                   Correct Safety and
                                   Soundness Deficiencies.
505(c) Absence of State Action.    Not Applicable
505(d) Definitions.                Not Applicable
506. Protection of Fair Credit Reporting Act.
506(a) Amendment.--Section         Part 334 – Fair Credit       The authority of the federal financial institution regulatory agencies to
621 of the Fair Credit Reporting   Reporting.                   conduct routine examinations for compliance with the Fair Credit
Act (15 U.S.C. 1681s) is           The banking regulators       Reporting Act (FCRA) is restored.
amended.                           anticipate issuing a new
                                   proposed rulemaking for
                                   public comments, due to      Division of Compliance and Consumer Affairs Memorandum Transmittal
                                   comments being received on   Number DCA-00-009, Revised Interagency Examination Procedures for the
                                   the October 20, 2000         Fair Credit Reporting Act, directs the resumption of routine examinations for
                                   proposal.                    compliance with the FCRA.

                                                                    33
                                                                                                                                 APPENDIX III


   GLBA Title V Section                FDIC Rules and                Financial Institution Letters (FIL) and/or DSC Examination
   Number and Heading                   Regulations                           Procedures (OIG Comments are in Bold)
                                                                 Federal banking agencies shall jointly prescribe regulations as necessary
                                                                 to carry out the purposes of FCRA with respect to financial institutions.
                                                                 FIL-71-2000, Proposed Regulations Implementing the Fair Credit Reporting
                                                                 Act, dated October 26, 2000. This FIL distributes the proposed rule, Part 334,
                                                                 published in the Federal Register (Vol. 65, No. 204, dated October 20, 2000).
                                                                 FIL-26-2001, Guidance on the Timing and Preparation of Privacy Notices to
                                                                 Conform to Fair Credit Reporting Act Requirements, dated March 27, 2001.
                                                                 This FIL provides guidance on a technical and timing aspect of the proposed
                                                                 rule, Part 334.
506(b) Conforming Amendment.      Not Applicable
506(c) Relation to Other          Section 332.16 Protection of
Provisions.                       Fair Credit Report Act.
507. Relation to State Laws.
507(a) In General.                Section 332.17 Relation to
                                  State Laws.
507(b) Greater Protection Under   Section 332.17 Relation to
State Law.                        State Laws.
508. Study of Information Sharing Among Financial Affiliates.
508(a) In General.                Not Applicable
508(b) Consultation.              Not Applicable
508(c) Report.                    Not Applicable
509. Definitions .
                                  Part 364, Appendix B,
                                  Section I.C. Definitions
                                  Section 332.3 Definitions

                                                                     34
                                                                                                                                  APPENDIX III


   GLBA Title V Section                 FDIC Rules and               Financial Institution Letters (FIL) and/or DSC Examination
   Number and Heading                    Regulations                          Procedures (OIG Comments are in Bold)
510. Effective Date.
                                    Part 364, Appendix B,        FIL-68-2001, Examination Procedures to Evaluate Customer Information
                                    Section III.G. Implement     Safeguards, dated August 24, 2001, stated that the effective date of the Section
                                    the Standards                501(b) provisions was July 1, 2001.
                                    Section 332.18 Effective     FIL-34-2000, Final Rule on the Privacy of Consumers' Financial Information,
                                    date; transition rule.       dated June 5, 2000, stated that the rule took effect on November 13, 2000, but
                                                                 financial institutions had until July 1, 2001, to be in mandatory compliance
                                                                 with the regulation.
                                           Subtitle B – Fraudulent Access to Financial Information
521. Privacy Protection for Customer Information of Financial Institutions.
521(a) Prohibition on Obtaining     Not Applicable               FIL-39-2001, Guidance on Identity Theft and Pretext Calling, dated
Customer Information by False                                    May 9, 2001.
Pretenses.
521(b) Prohibition on               Not Applicable               FIL-39-2001, Guidance on Identity Theft and Pretext Calling, dated
Solicitation of a Person to                                      May 9, 2001.
Obtain Customer Information
from Financial Institution under
False Pretenses.



521(c) Nonapplicability to Law      Not Applicable
Enforcement Agencies.
521(d) Nonapplicability to          Not Applicable
Financial Institutions in Certain
Cases.
521(e) Nonapplicability to          Not Applicable
Insurance Institutions for
Investigation of Insurance Fraud.

                                                                     35
                                                                                                                           APPENDIX III


   GLBA Title V Section                FDIC Rules and            Financial Institution Letters (FIL) and/or DSC Examination
   Number and Heading                   Regulations                       Procedures (OIG Comments are in Bold)
521(f) Nonapplicability to        Not Applicable
Certain Types of Customer
Information of Financial
Institutions.
521(g) Nonapplicability to        Not Applic able
Collection of Child Support
Judgments.
522. Administrative Enforcement.
522(a) Enforcement by Federal     Not Applicable
Trade Commission.
522(b) Enforcement by Other       Not Applicable - Covered
Agencies in Certain Cases.        under Section 8 of the
                                  FDI Act.
523. Criminal Penalty.
523(a) In General.                Not Applicable             FIL-39-2001, Guidance on Identity Theft and Pretext Calling, dated
                                                             May 9, 2001.


523(b) Enhanced Penalty for       Not Applicable             FIL-39-2001, Guidance on Identity Theft and Pretext Calling, dated
Aggravated Cases.                                            May 9, 2001.
524. Relation to State Laws.
524(a) In General.                Not Applicable
524(b) Greater Protection Under   Not Applicable
State Law.




                                                                 36
                                                                                                                     APPENDIX III


   GLBA Title V Section              FDIC Rules and       Financial Institution Letters (FIL) and/or DSC Examination
   Number and Heading                 Regulations                  Procedures (OIG Comments are in Bold)
525. Agency Guidance.
                                 Not Applicable       FIL-39-2001, Guidance on Identity Theft and Pretext Calling, dated
                                                      May 9, 2001, summarized federal laws regarding identity theft and pretext
                                                      calling; discusses measures that banks can take to protect customer
                                                      information; informs banks on how suspected criminal activity should be
                                                      reported; highlights the importance of consumer education; and provides
                                                      references for additional assistance.
                                                      The FDIC has not issued specific examination procedures that address
                                                      this provision. (Refer to Finding B .)
526. Reports.
526(a) Report to the Congress.   Not Applicable
526(b) Annual Report by          Not Applicable
Administering Agencies.
527. Definitions .
                                 Not Applicable




                                                          37
                       APPENDIX IV


CORPORATION COMMENTS




         38
     APPENDIX IV




39
     APPENDIX IV




40
                                                                                                                                                APPENDIX V


                                           MANAGEMENT RESPONSES TO RECOMMENDATIONS
This table presents the management responses that have been made on recommendations in our report and the status of recommendations as
of the date of report issuance. The information in this table is based on management’s written response to our report (and subsequent
communication with management representatives.)

                                                                                                                                                   Open
                                                                                                                      a                    b
 Rec.                                                                 Expected             Monetary       Resolved:       Dispositioned:            or
Number Corrective Action: Taken or Planned/Status                   Completion Date        Benefits       Yes or No         Yes or No             Closedc
  1    Incorporate specific examination procedures into
       the IT General Work Program for evaluating a                   March 31, 2004           none           Yes                No                Open
       bank’s compliance with the pretext calling
       guidelines.
  2    Issue guidance to examiners in the form of a
       Regional Directors Memorandum that will
       identify specific procedures relative to GLBA                December 31, 2003          none           Yes                No                Open
       Title V, Subtitle A, that examiners should
       consider and provide guidance for summarizing
       the work performed.
  3    Issue guidance to examiners as part of the
       proposed Regional Directors Memorandum to be
       issued in response to recommendation 2. The
       memorandum will provide guidance regarding the               December 31, 2003          none           Yes                No                Open
       manner in which a financial institution’s
       compliance with customer information safeguard
       standards is addressed in a report of examination.

a
    Resolved –   (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                 (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
                 (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                 management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the recommendation.
c
  Once the OIG dispositions the recommendation, it can then be closed.




                                                                               41
